Department of Health and Human Servces
        OFFICE OF
   INSPECTOR GENERAL




THE REFUGEE MATCHING GRANT PROGRAM:
BALANCING FLEXIBILITY AND ACCOUNTABILITY




           . SERVlq'


                       JU   GffBS BROWN
                       Inspector General
                          AUGUST 1994
           Ya3a
                          OEI-Q9-92-
                        OFFICE OF INSPECfOR GENERA
 The mission of the Offce of Inspector General (OIG), as mandated by Public Law 95- 452 , as
 amended , is to protect the integrity of the Department of Health and Human Servces ' (HHS)
 programs as well as the health and welfare of beneficiaries served by those programs. This
 statutory mission is carred out through a nationwide network of audits , investigations , and
 inspections conducted by three OIG operating components: the Offce of Audit Servces, the
 Offce of Investigations , and the Offce of Evaluation and Inspections. The OIG also inform
 the Secretary of HHS of program and management problems and recommends courses to
 correct them.

                            OFFICE OF AUDIT SERVICE
 The OIG' s Offce of Audit Servces (OAS) provides all auditing servces for HHS , either by
 conducting audits with its own audit resources or by overseeing audit work done by others.
 Audits examine the performance of HHS programs and/or its grantees and contractors in
carrng out their respective responsibilties and are intended to provide independent
asesments of HHS programs and operations in order to reduce. waste , abuse , and
mismanagement and to promote economy and effciency throughout the Department.

                           OFFICE OF INTIGATIONS
The OIG' s Offce of Investigations (OI) conducts criminal , civil , and administrative.
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of OI lead to criminal convictions
administrative sanctions , or civil money penalties. The OI also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                 OFFICE OF EVALUATION AN INSPECTONS
The OIG' s Offce of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congres , and the public. The findings and recommendations contained in these inspection
report generate rapid , accurate , and up- to- date information on the effciency, vulnerabilty,
and effectivenes of departmental programs. This report was prepared in the San Francisco
regional offce under the direction of Kaye D. Kidwell , Regional Inspector General , and
Paul A Gottlober, Deputy Regional Inspector General. Project staff included:

REGION IX                                              HEQUARTES
Elizabeth Celniker                                     Alan Levine

Robert Gibbons

Catherine King
Ellen Kotler
Donald Loeb
Brian Pattison
Thomas Purvs
Brad Rollin

For additional copies of this report , please contact the San Francisco offce at (415) 556- 6830.
Departent of        Health and Human                         Servces
        OFFICE OF
   INSPECTOR GENERA




THE REFUGEE MATCHING GRANT PROGRAM:
BALANCING FLEXIBILITY AND ACCOUNTABILITY




           t'SERYlCES.


                                   JU GffBS BROWN
        (4- d3a
                                       Inspector General
                                          AUGUST 1994
                                          OEI-09-92- 00060
              EXECUTIVE SUMMAR Y

PUROSE
Ths inspection assessed (1) how voluntary agencies -and their affates deliver      and
(2) how the Offce of Refugee Resettlement monitors servces to refugees
parcipating in the Voluntary Agency Matchig Grant Program.


BACKGROUN
The Voluntary Agency Matchig Grant Program was        established in 1979 as an
alternative to State-admistered refugee resettlement programs. The program s goal
is to help refugees attain economic self-sufciency without accessing welfare. The
Offce of Refugee Resettlement (ORR), within the Administration for Children and
Famies , fuds the program   through matching grants to priate , national voluntary
agencies (volags). Volags tyicaly subcontract with community- based social servce
agencies (afates) to  provide direct servces. In 1992 , Federal fudig was
approxiately $39. 2 milion. Volags and affates provide servces        for refugees durig
their second though fourh months in United States.     In 1992 ,   the matching grant
program served about one-third of all refugees arrving in the United States.

The ORR requies that affates place employable refugees in " appropriate " jobs as
soon as possible. It has established a gudelie-but does not requie- that      at least
60 percent of cases (a single individual or famly) be economically self-sufcient at      the
end of 4 months.

For background puroses , we reviewed program gudelies , performance report , and
volag self-sufciency outcome data for the last 3 program years. From September
though November 1993 , we conducted on-site visits or telephone intervews with the
6 parcipatig and 6 nonparcipating volags and 159 of the 165 parcipatig affiates.
We asked volags and afates to descnbe their history, the refugees that they serve
the servces they provide , and how the program is monitored. We obtained their
opinons about the program s gudelines, performance goals , and how the program
could be improved. We also intervewed ORR offcials.

FIINGS
Prgr flil         alws ajtes to tailr seres to a diere refgee popultin
Afates serve refugees (1) from many different countries , (2) with a range of skils
needs, and characteristics , and (3) whose needs have changed since the program
inception. Flexibility has allowed affates to taior specific servces, such as case
management , Englsh-language training, maintenance assistance , and acculturation to
the refugees they serve.
Refgees and ajte 11t overome muple            bar to att self-su
When asked about the barrers that afect refugees ' self-suffciency, volags and
affiates noted multiple problems including (1) refugees ' Englsh and job skils
(2) poor local economies , (3) lack of adequate medical coverage, and (4) disincentives
caused by high welfare payments and easy access in some States. Some affates have
developed unque methods to overcome these barrers.

Apprly         haf of th   afte bele th ORR overempha              ea emplo
Approxiately hal of the afates believe that at least some refugees would be better
served by an extended traig and resettlement approach. In general, these afates
believe that the decision to emphasize extended trainng instead of early employment
should be made on a cae-by-cae basis.

Pr       efecten meases are       inte
Alost half of the affates believe that job placement at 4 months is not, by itself, an
appropriate measure of the program s success. Furthermore, ORR has no long- term
effectiveness measures.

Gentig an
sered
                dog           machig fu li        th nuer an type of refgees
Afiates are requied to match Federal grants with cash and/or donated goods and
servces. Generatig and documenting the match takes away from affates ' abilty to
provide servces and has had some unforeseen consequences. These include afliates
(1)  litig  the number of refugees they serve , (2) refusing to serve certain tyes
refugees, (3) delayig the donations of goods and servces , and (4) refusing to
partcipate in the program.



RECOMMATIONS

me an data collctnpeorme
Th   ORR slwuJ deelp
                    tehninatrs                 by reg    an   exg it cuen
Whe 4-month self-sufciency could contiue to be one performance measurement
ORR should routiely collect longer-term refugee self-sufciency data. Many affiates
aleady collect longer- term data or would experience miimal dicuty collectig it.
Both long- term and 4-month self-suffciency measures should take into account (1) the
health of the local economy, (2) servces available in the community,   (3) tyes of
refugees served, and (4) affliate enrollment policies.
Th   ORR shoul   cons optins to rede th bur of th match            req
The ORR should conduct a study to determe how the match requiement could be
revised to reduce the paperwork burden on grantees without compromising Federal
grant admistration audit requirements.
AGENCY    COMM
The ORR provided co=ents on     the draf report. In response ,   we added and
modied tex in the body of the report and revied our reco=endations.       The fu
text of ORR' s co=ents appears in the appendi.
                                                                                       . . . . . . . . . . . . . . . .. ..... .. .. . ..
               . . . . .. .. .. .. .. .. .. . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. . . . . . . . . .




                    TABLE OF CONTENTS
                                                                                                                                                  PAGE
EXCU SUY
INODUCI0N .                                                                                                             . . . . . . . . . . . .. 1€
FIINGS. .                                                                                                    . . . . . . . . . . . . . . . . . 6€
 . Program   flexibilty ..............................................                                                                                 6€

 . Refugees and affates face                    barers. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8€
 . Overemphasis on         early employment. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

 . Effectiveness   measures. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

 . Match requiements pose                  problems. . . . . . . .
FUCX           i\TIONS .....                                                                                                                      . .. 15€

APPENIX
                                      INTRODUCTION

PUROSE
Ths inspection assessed (1) how voluntary agencies and their affates deliver                               and
(2) how the Offce of Refugee Resettement monitors servces to refugees
parcipatig in the Voluntary Agency Matchig Grant Program.
BACKGROUN
The Volunta Agency      Matching Grant Program (MGP) was establihed in 1979 as an
alternative to State-admstered refugee resettement programs. The program s goal
is to help refugees attai economic self-suffciency without accessing welfare. The
Offce of Refugee Resettlement (ORR), with the Admstration for Chdren and
Fames , fuds the program though matchig grants to private, national voluntary
agencies (volags). Volags
                                       tyicay subcontract with co=unty-based social servce
agencies (afates) to                provide diect servces. In 1992, Federal         MGP fudig was
approxiately $39.        2 mion.
Though contracts with the State Deparent and ORR , volags provide servces to
refugees durig their fist 4 months in the United States. The State Deparent
provides overseas orientation and fuds 12 volags to provide reception and placement
servces for al refugees durg their fit 30 days in ths countr. These servces
include sponsorship assignent, co=unty orientation , and intial food , clothg, and
shelter. Afer providig reception and placement servces-and if refugees are not
employed and are in need of support-volags may either refer refugees to State
welfare agencies or enroll them in the MGP. Of the 12 volags that provide reception
and placement servces , 6 participate in the MGP. The following chart lists the volags
and the number of refugees they served in the MGP in 1992:

                                                               Refugees Served            MGP Fun
                              Volag
                                                            Number      Percntage     Millons    Percentage
    Council of Jewb   Federations                               852        86.         $33.          865
    Unite States Calbnlic Conference                            754                      3.8
    Lutberan Immigrtinn and Refugee Servce                      670                                   1.8
    International Rese Committee                                                         0.3
    American Council for Nationalities Servce                   458         1.2

    TOTAL                                                      336        100.         $39.         100.

        A six volag, Ibe Epispal Ministries pacipates as a subgrtee        of the Council of Jewh Federatinns
    .. The total percentage is grter than 100. 0   percent because nf rounding
Reee eligiil an selectin€
The volags select refugees to participate in the MGP from those who participated in€
the State Department' s reception and placement program. Refugees generally are
eligIole to participate as long as one famiy member is employable. Aged and disabled
refugees, who are eligible to receive Supplemental Security Income shorty after their
arval , are automaticay excluded from the program. In 1992, the MGP served about
one-thd of all refugees   arg  in the United States. The Council of Jewish
Federations serves more than 85 percent of the MGP refugees. Its New York City
afate alone serves approxiately half of al Counci of Jewish Federation refugees€
and more than one-third of al refugees in the MGP.€

Aurig lelan€
Although Congress never specifcally established the MGP , authorition for the MGP€
is found in subpart (c) of 8 U. C. 1522. Subpart (c) authories ORR to make grants
and contracts with public or private non-profit agencies "priarly for the purose of
faciltating refugee employment and achievement of self-suffciency. " The law states€
that these grants essentially are designed to

       assist refugees in obtaining the skis which are necessary for economic€
       self-sufciency, includig projects for job training, employment servces€
       day care , professional refresher traing, and other recertcation
       servces.... to provide traig in Englsh where necessar... (and) to
       provide where specifc needs have been shown... health (includig mental
       health) servces, social servces, educational and other servces.

Pr guli
The ORR has not promulgated reguations to implement the law authorig the
MGP. Instead , ORR developed and distributed gudelies that set fort the MGP'
goals, requiements , and reco=endations concerng how volags        and affates should
provide MGP servces. Volags and afates have great fleXibilty to design programs€
that best meet the needs of their refugees as long as they meet ORR' s mium€
requiements.€

The gudelies requie volags and their affates to provide refugees with case
management, job counselig and placement, and cah or other maitenance assistance
from their second through at least their fourth month in the countr. In addition
ORR requies that volags and affates continua11y work to develop new job
opportunities. They must fo11ow up with employers or refugees within 2 weeks after a
refugee has been hired in order to identify any adjustment problems. Volags and
afates must be able to provide other servces as necessary including job   traig,€
Englsh language training, and acculturation servces , either diectly or through€
referral.€
 The guidelines refer to other social servces that are available to refugees. Refugees
 may receive food stamps and either Medicaid or refugee medical assistance for up to
 8 months. Federal regulations state that if a refugee becomes ineligible for Medicaid
 or refugee medical assistance solely because of increased earnings from employment
 the refugee s eligibilty should be extended for an additional 4 months or until the
 refugee has been receivig    assistance for 8 months , whichever comes first. The volags
 must ensure that refugees do not accept public cash assistance while enrolled in the
 MGP. .

Volags may contiue to provide MGP servces to refugees beyond the 4-month period.
They must ensure , however, that overall costs for Federal reimbursement do not
exceed the total alowable lit of $1 000 per refugee.

Ea emp/o objecties            an th 4-mont 60         en   selfsu guli
According to Federal regulations and the MGP gudelies, afates should place
employable refugees in " appropriate " jobs as soon as possible, and refugees must
accept entry-level jobs. In general , ORR believes that an appropriate job is one that
matches a refugee s physica skis and abilties. Refugees are supposed to maintain a
 good-faith" effort to attain employment whie acquig enough competency in Englsh
to secure and retain employment. The early employment approach is intended to
minimi"e the chance that a refugee wi require welfare assistance after the MGP.
Afates may provide additional job traing, Englsh classes, and acculturation
servces to help the employed refugee rise above the entry level.


The ORR has established a guideline-but does not requie-that at least 60 percent        of
caes (a single individual or family) be economically self-suffcient at the end of
4 months. Accordig to the gudelines, refugees are deemed self-sufcient when they
 no longer need public, matching grant or other fiancial assistance because they are
employed. " The ORR does not attempt to measure " social adjustment, " although it is
a priar goal of the MGP. Overall , volags and afliates are not meeting the
60 percent self-sufciency goal , primariy because the Counci of Jewish Federations
the largest volag, is far below the goal.

Math Reqem
The MGP gudelines state that volags and affiates are required to match Federal
fuds dollar-for- doIJar. The Federal government matches affate contributions up to
   000 per refugee resettled. As much as 80 percent of the match may be obtained
through in-kind donations, but at least 20 percent of the affliates ' contribution must
be cash. Because the first 30 days that refugees spend in this country are covered by
the State Departent s reception and placement program, goods and servces donated
durig this period cannot be counted towards the MGP' s match requirement.
Reportg an Monirig€
Volags have the priary              ensurg that their affiates provide quality
                          responsibility of
MGP servces. The ORR does not routinely conduct on-site monitorig of afiates.
Volags submit quarterly statistical reports to ORR showing the number of refugees
served and their self-suffciency status at the end of 4 months. At 7 months , volags€
report on the employment status of refugees    who were self-sufcient at 4 months in
order to assess their job retention. V olags are   supposed to veri   the   accuracy of
afates ' reports, the quality of their servces , and their compliance with Federal€
gudelines. The ORR does not have requirements for how frequently volags must€
monitor their affates and does not routinely receive copies of the volags '     site visit
report.
Sta refgee   astae progrms
Refugees who do not partcipate in the MGP, plus some refugees who complete the€
MGP , receive servces through State-admistered refugee resettlement programs that€
ORR fuds. In contrast to the MGP, extensive reguations govern the admnistration€
of the State programs. The regulations require States to enroH all refugees and€
provide servces that are simlar to those received by MGP refugees. The ORR does€
not requie States to provide case management, however. The MGP refugees who are€
not self-suffcient at the end of 4 months may receive support from Aid to Famies€
with Dependent Chdren , if eligible , or they may apply to State welfare agencies for€
an additional 4 months of cash assistance in States where such assistance is available.€

Recen Poli    Deelopm
In early 1992, the Bush Adminstration proposed replacing the State-admstered€
refugee cash and medical assistance programs with a "Private Resettlement Program
that would have used volags to deliver servces to al refugees. In Februar 1993 , a
U.S. District Court blocked implementation of the proposal because ORR had not
alowed sufcient public notice and comment. In the next 2 years , Congress€
consider reauthorig the MGP and other ORR programs. The ORR is currently€
holding a series of town-hal forums throughout the country to obtai views        concerng€
futue directions of refugee resettlement programs , including the MGP.€

Rete Stu€
The Inspector General' s Offce of Audit Servces is currently reviewing the adequacy€
of eligibility controls and the appropriateness of job training in the State-administered€
programs. The Offce of Audit Servces also recently completed an audit that€
examines ORR' s oversight of the entire refugee resettlement program, includig the€
MGP. In a November 1993 draft report on refugee resettlement, the United States€
General Accounting Offce found that the MGP had substantial fiancial surpluses in€
1991 and 1992. The surluses primariy resulted from fewer refugees arrving from the€
former Soviet Union. Ths caused the Council of Jewish Federations to settle fewer€
refugees than it had anticipated.€

MEODOLOY€
For background purposes ,                     we reviewed MGP program gudelines, performance€
report, and volag self-sufciency outcome data for the last 3 program years. From€
September through November 1993 , we conducted on-site visits or telephone€
intervews with the 6 parcipatig and 6 nonparcipatig volags and 159 of the€
165 parcipatig afates. We asked volags and                        afates to descnbe their history, the€
refugees that they serve ,
                      the servces they provide , and how the program is monitored.€
We obtaed their opinions about the program s gudelies , performance goal, and€
how the program could be improved. We did not attempt to veri                      the inormation

and data that they provided to us. We also intervewed ORR offcials.€

We conducted ths inspecton in accordance with the 


issued by the President' s
                                                                      Qu
                                            Counci on Integrty and Effciency.€
                                                                              Sll     for Insctns€
                                    FINDINGS

The Voluntary Agency Matching Grant Program allows volags and affliates to provide a€
valuable range of integrated services to refugees who have recently entered the United
States. Program monitoring is largely the responsibility of the volags; the Federal€
government' s oversight is minimaL The ke to success may be the program s      abilty to
respond timely to changing conditions and fluctutions in the number and natue of€
refgees it serves.

Volags and affliates have taken advantage of the MGP's inate flexbility by altering and€
adpting their services                 popultion of refg es whose needs have changed
                         to assit a diverse
and intensifed over tie. As evidenced by the following specific findings and
recommendations (which incate the need for some ' 'fne- tuning' ), this flexbility, in
tandem with appropriate accountabilty measures, needs to be supported and strengthened
to assure the success of the MGP.

PROGRA
DIVE
            FLIL    ALWS AFTE
           REGEE POPULTION
                                                         TO TAIR SERVICE TO A

Both as wrtten and in their implementation , the MGP gudelines neither mandate nor
advocate a single model for achievig refugee self-sufciency. While the
                                                                             gudelies
focu on the goal of assistig refugees to attain self-sufciency, they specify few
program requiements or means to achieve ths goal. These decisions are left up to
the individual affliates.

Afates believe that flexibilty is necessar because of the refugees ' diversity.
Afates serve refugees from countries rangig from the former Soviet Union to
Somala and Vietnam, and almost all must tr      to find jobs for refugees with a   wide
range of skis ,   from farers and laborers to doctors and scientists.

Afates have needed the MGP' s       flexibilty to alter their servces over tie.
Accordig to at least one- thd of the afates, refugees parcipatig in the MGP
when it was initiated were signcantly easier to serve than today s refugees. They
believe that today s refugees are older, less healthy, less employable , and not as
motivated, although this contradicts irormation that ORR has co1Jected on refugees
enterig the United     States. Some afates    are fidig that fames are becoming " top
heavy as older refugees between the ages of 50 and 65 join their relatives. These
refugees were already retired in their former countres and often are less motivated to
lear new customs and skills. The followig char ilustrates some of the changes that
afates have experienced in trng to adapt.
                 Changes in the refuge population   prent challenges
                                 acrding to MGP affiltes




                  In the eay                  In compan, a number of
                  refu fam                    affilte re     th rent
                                              regee fames tend to be
                                                older
                       ll-educaed               les educ
                    high-skied                  les higbkiled
                    heiy                        les heathy€
                    generll Englh­              lackig Englh
                    proficient                  proficincy




The MGP' s fleXIbilty has al10wed afates to address these refugee changes.
Afates have been able to refocus from providing fewer and less intensive servces
such as simple job placement , to providig a wider range of more intensive servces,
such as Englsh-language training, health servces , job traig, and case management.

Because of the flexible gudelies , afates can tailor various servces such as case
management, Englsh-language traig, and maitenance assistance to the refugees
they serve. For example, whie some refugees might requie intensive case
management, others might requie very little assistance. Because the MGP gudelies
do not requie cae managers to meet with refugees a specifc number of ties
afates have   the flexibilty to devote cae management resources to the refugees who
need them most. Similarly, afates var the amount and extent of English-language

                          co=unty.
traig and maintenance assistance based on individual refugees ' needs as well as the
resources available in the

The MGP gudelines specifcally encourage affates to use their resources to provide
servces beyond those specified in the MGP gudelines. The gudelies state that
 agencies are encouraged to develop special programs which take into account client
characteristics and the agency s experience. " More than two-thds of afates provide
additional servces such as job trainig, medical servces, chid care, and, after
4 months, food and rent assistance and interest-free loans. Some of these affliates go
beyond these servces in offerig semiars on various subjects includig: American
holidays and customs , automated teller machines and the bankig system , health
 insurance , hygiene , and American work ethics. Some affliates noted that they provide
 mental health counseling and social servces to help refugees manage the trauma of
 relocation. By providing additional servces , affates believe that refugees have a€
 better chance of attaining self-suffciency rather than entering the welfare system.

 REGEE AN AFTE
 ATTAI SEL-SUFCICY
                                    MUST OVECOME MiTILE                 BAR
 When asked about the barers that affect refugees ' self-sufciency, volags and
 afates noted multiple problems includig (1) refugees ' Englsh and job skis
 (2) poor local economies , (3) lack of adequate medica coverage , and (4) disincentives
 caused by high welfare payments and easy access in some States. Approxiately
 60 percent of affliates and 5 of the 6 volags said that they face thee or more barrers.
 Despite encounterig multiple barers , some afates descnbed unque methods
 overcome these obstacles.

. Lack of English and appropriate job skis are the top two barers to refugee self­
  sufciency, accordig to affiates. More than two-thirds of all affates indicated that€
  refugees ' lack of English skis is a major problem, makig it the most frequently
  mentioned barrer to self-sufciency. Afates also have problems fidig
  employment for refugees because some refugees lack the basic skills required by
 American employers. Others are well-educated but lack appropriate skils. Afates
  cited examples of engieers sti using draftg equipment rather than Computer- Aided
 Design and computer programmers unskil1ed in the use of English computer
 languages.

Five of the six volags and many affates believe that the downtu in the American
economy has led to fewer job opportties for refugees. In many communties , jobs
traditionally fied by refugees have become scace , and refugees now must compete
with Americans for these jobs. In areas with large layoffs and plant closures , afates
mentioned that competition with skied America workers is overwhelmng for
refugees who have few transferable job skis, cannot speak Englsh, and have no job
history. Alost hal of all affates mentioned the economy as a major barer, and
82 percent of the afates that reported recent declines in self-sufciency indicated
that the economy is the major reason.

Alost one- third     of the afates described diculties obtainig Medicaid or other
medical assistance for refugees. In some cases, State agencies do not understand
refugees ' eligibilty for medical programs. For example , affliates described instances
where States confused refugees with immigrants and did not give them the medical
servces to which they were entitled. In addition, more than half of all affiates
reported that some refugees who have famy members that may need medical
attention do not take jobs because they fear losing Medicaid or other medical
assistance , a fear that is sometimes unfounded. Ths problem is compounded by some
States that do not provide extended medical coverage although Federal governent
reguations indicate that eligibilty should continue for a short time after employment.€
                                                ".




By workig directly with the State agencies or with ORR' s    assistance   , some affliates
noted that they have been able to resolve this issue.

The availability and amount of State welfare and social servces can have a diect
impact on refugees ' abilty and wiingness to become self-sufcient. More than one-
thd of afiates , includig many in Caliornia, New York, Ilois , and Michigan
experience diculty with refugees who appear less motivated because welfare benefits
in their State are generous. In fact, networks of refugees exist in some of these States
that educate refugees about the welfare system before they enter the countr.€
Conversely, other afates mentioned      that because their States offered litte or no
general assistance , nearly al refugees are self-sufcient at the end of 4 months. For
exaple, one affate hypothesized that the lack of welfare in their State explais why
their self-sufciency rate was 98 percent compared to New York's 5 percent.

Afates volunteered     unique methods to overcome these barers.    These include
developing new traing and job opportties for refugees , fiding unque solutions to
lack of health coverage, workig to change some refugees ' atttudes about welfare , and
fidig ways to provide more intensive servces than other affliates. Some examples
include:

       one afiate that links professional1y-trained refugees to local unversity
       professors who act as mentors

       one affate that has agreements with local companes to employ and provide
       Englsh classes for refugees with very poor English

       one affiliate that has developed on-going referral relationships with more than
       120 local companes and corporations , and

       a few afates that have devoted tremendous tie and resources to develop
       relationships with local hospitals and health care providers to provide free or
      low-cost medical servces.

            TI AFTE
APPROXITEY HA
OVEHAIZ EAY EMLOYM
                             OF                         BELVE TIT ORR

Although ORR , most volags , and many affiates believe that early employment is the
most effective approach to refugee resettlement, approxiately hal of the afates
believe that an extended training and resettlement approach would better serve al
some of their refugees. Alost al1 affliates attempt to obtai early employment for
refugees; however , more than half of the affliates indicated that they would prepare
refugees for other tyes of employment if ORR did not emphasize early employment.
The ORR , however, believes that this approach confcts with Section       412 the
                                                                                of

Imgration and Nationalty Act , which states that Congress intended refugee
resettement funds to be used to place employable refugees " on jobs as soon as
possible after their arrval in the United States.
Afiates agree   that the overall goal of the MGP is to help refugees obtain economic€
self-sufciency, but they disagree on the defiition of "economic self-sufciency" and€
how to achieve it. Some affliates believe that refugees are best served if they find€
employment quicldy and learn English and acculturate through workig. Other€
afates believe that early employment is not synonymous with " economic self­
sufciency. " They believe that the emphasis on early employment frequently results in
inappropriate job placements. For example, affates felt pressured to place refugees
in such poor matches as mathematicians takng piza delivery jobs and electrcal
engieers workig as janitors. Accordig to these afiates, when refugees are placed
in inappropriate jobs , they do not retain them and, because they are no longer eligible
for refugee assistance , they enter the welfare system. Afates assert that, in these
caes , refugees become more entrenched in the welfare system because they no longer
have access to the servces , training, and support that the affates provide.

Approximately half of the affates   believe that at least some refugees would be better
 served if they could concentrate on learng English, overcomig cuture shock,
undergoing intensive job training, and havig their social servce needs met while
 enrolled in the MGP. Ths approach would result in a more appropriate , higher-level
job placement and long-term economic self-suffciency, accordig to its advocates.
They contend that long- term economic self-sufciency is better achieved by takg
tie-up to a year, according to some--to fuJly acculturate and train refugees rather
than placing them in inappropriate entry-level jobs. For example , one affliate
believes that ths extended approach would allow many of their refugees who become
mancursts to forego these entr- level jobs and instead concentrate on adapting their
computer or medical skils to United States ' standards.

In general , afliates that would like the flexibilty to provide extended traing believe€
that the decision should be made on a case-by-case basis. Ths would allow them to€
design effective resettlement plans for each refugee based on that refugee s skils€
needs , and desires. The foJlowig chart ilustrates how dierences among refugees
warrant diferent strategies to serve them.
PROGRA           EFCI MEUR AR                            INADEQUATE

  ajte
Man      belie
me of th MGP's suce     tJ job   placem at       moll is not, by itelf an appropri

Although volags report the employment status of all refugees at 4 months , these data
alone do not effectively measure volag performance. Alost half of al affates
disagree with or have reservations about the 4-month , 60 percent employment goal.
Accordig to affiates , the 4-month data do not reflect their different enronment€
policies, variations in their local economies, or the diversity of the refugees they serve.€

Diferent affate enrollment     policies affect volags ' 4-month employment rates. Some
afates, especially those workig with the Council of Jewish Federations , make it a
policy to place an eligible refugees into the MGP while others select refugees they€
believe make the best candidates for achievig early employment. When asked about€
its afates ' enrollment policies ,    the Council of Jewish Federations stated that its
national policy is to enroll aU eligible refugees. In contrast, less   than 14 percent of the
other volags '
            affliates enroll all eligible refugees. These affates select only refugees
whose motivation, health , and famiy size and composition make them more easily€
employable.€
  Of those affliates that disagree with the 4-month, 60 percent employment goal
  38 percent believe it is not appropriate because it does not take into account the local
  economy. Downturns in the American economy have reduced job opportties in
  many communities. For example , one volag had an agreement with a major hotel to
  place its refugees as soon as they arrved in the United States. When the hotel was
  forced to eliminate jobs , the first jobs to go were the ones refugees had filled.
  Because of this , the volag has had to search for new job opportities for its MGP
  refugees. Therefore , even if refugees are willing to accept any employment
  opportty, they may be forced to wait unti jobs become available or they must
  relocate.

 Another factor that the 4-month, 60 percent employment goal does not address is the
 fact that some affiates serve refugees who have greater needs, fewer skis, and are
 more chalenging to serve in general than refugees served by other affiates. Refugees
 from the former Soviet Union tend to be more skilled than refugees from other part
 of the world, but they may be more diffcult to serve because they prefer, and perform
 better, in jobs that utilize their ski1ls. Other refugees may come from an agraran
 society where many people are pre- literate farmers , shepherds , and fisherman who
 have received mimal health servces. These refugees require more intensive servces
 and often are less attractive to potential employers.

 Afates offered suggestions to improve how ORR measures their performance.
 Some afliates reco=ended that ORR be more flexible and adjust the goal based on
 such factors as local economies and refugee characteristics. Whle they do not
 necessarily advocate a scorig system for individual refugees , they would like to see
 ORR adjust the goal to take into consideration special circumstances that are obvious
 and ca be documented. Other afates contend that 4 months is not long enough to
 accately measure self-sufciency. These afliates would lie ORR to lengthen           the
 program or measure self-sufciency at a later date.

 Th ORR ha no long-te efectiene mees
 The ORR cannot measure and compare the success        of the afliates   ' dierent
 resettement approaches because it lacks long- term effectiveness measures. Afates
 that lit enrollment and focus on early employment tyica1ly have high 4-month self-
 sufciency rates. Afiates that do not limit enrollment and emphasize longer-term
 intensive training and resettlement servces tyically have lower self-suffciency rates at
 4 months. Many of these afates assert that if ORR measured self-suffciency afer a
 year or more , it would find that they have higher self-suffciency rates and that
 refugees have found higher- level employment. The ORR does not believe that long-
 term effectiveness measures can be developed or would be appropriate for a 4-month
 program.

 Although ORR co1lects 7-month refugee data, these data are problematic. At
 7 months , ORR requires affliates to report the employment status of refugees who
. were employed at 4 months. While these data may be usefu to assess the refugees
job retention ,   some affliates clearly do not understand the purpose of the 7-month
 report and submit incorrect data. These affliates simply report the percentage       of a1
 refugees who are self-sufcient at 7 months. The ORR does not validate these data.

Most affIliates could track refugees for a longer period of tie   if required.
Approxiately 83 percent      of affiates indicated that they already track refugees   afer
7 months or that they would have minor or no diculties trackig them for at least
another year. The remaining 17 percent of afates indicated that they would have
major diculties trackig refugees   after 7 months, maiy because they serve large
numbers of refugees or their refugees move frequently and do not stay in contact.

               pro
dier efectiene measesimle
Compg th MOP to State refgee
                          becaue th hae          ha bee


Although ORR has attempted to compare the effectiveness of the MGP and State­
admstered refugee programs , no successfu comparison has been completed. In
1991 , ORR co=issioned a study that would have compared the self-sufciency
outcomes of comparable refugees enrolled in the MGP and State programs. The
ORR cancelled the study because of problems with the contractor.

Furhermore, according to ORR, any comparison between the programs would be
dicult for two     reasons. First, affliates ca choose which refugees to enroll in the
MGP. States, on the other hand, must enroll and serve an or some of the remaing
refugees. Second, not al volags partcipate in the MGP , and those that do may only
allow afliates in good job opportunity areas to partcipate. Therefore, their self-
sufciency rates would be signficantly higher than State agencies

GENTIG AN DOCUG MATCHG FUS LI TI
NUER AN TYES OF REGEE SERVE
Generatig and documenting the match takes away from afates '         abilty to provide
servces and has had some unoreseen consequences on the operation of the MGP.
These include affliates (1) limiting the number of refugees they serve , (2) refusing to
serve certain tyes of refugees ,   (3) delayig the donations of goods and servces , and
(4) refusing to participate in the MGP.

The match policy causes some affiates to limt the number of refugees that they
serve. When asked what factors limt the number of refugees that they could serve
approxiately 40 percent of afliates mentioned concerns about the match
requiement. Concerns included generating the match , documenting in- kid servces
and unwillngness of volunteers to complete burdensome paperwork. For example
one afliate noted that volunteers refused to help when told of the accountabilty and
paperwork involved.

Approximately 16 percent of affliates have restricted the tyes of refugee they will
serve mainly because of the match. In most instances , these affiates refuse " free
cases " or restrict enro11ment   to refugees who are being reunited with  their famies.
By requiring the families to pay for their relatives ' entr into this country, these
affates have a much easier time generating and documenting the match. In addition
many of these refugees need fewer servces, and affliates can more easily generate the
match as frends and family assist refugees with English tutoring, transportation to job
sites and health servces , and informal acculturation.

More than one- third of the afiates have had problems with ORR' s requiement that
goods and servces donated durig the refugees ' fist 30 days in the country not count
towards the MGP match. Afliates utie many donated resources durg refugees
fist month in the country. They may not count these resources as par of the MGP
match, because these goods and servces techncally are provided to refugees under
the State Departent s reception and placement program . To get around ths
approxiately 22 percent of al afates have delayed the donation of nonessential
items or have " loaned" items for the first 30 days. For example, one      afate
acknowledged that , in certain circumstances , it has asked refugees to sleep in sleeping
bags unti it could count donated beds towards the MGP match. Other afates have
avoided delaying the donation of items , but still believe that ORR should count some
or al of these items toward the match.


The ORR states that loaning goods is not appropriate and stresses that employment-
related servces donated during the fist 30 days    may be counted towards the match.
Afates clearly are more concerned with durable items such as future          not   countig
towards the matCh. The ORR also states that it has asked volags to determe what
 mimum requirements " refugees should receive durg the first 30 days so that it can
count any extra servces towards the MGP match , but ORR asserts that volags have
rejected this idea.

Six volags provide reception and placement servces but do not partcipate in the
MGP. Thee of these volags indicated that the match and burdensome paperwork
requiements are the major reasons that they do not partcipate. As a result, refugees
who enter the country under their auspices do not have access to MGP servces and
must partcipate in State-admstered resettlement programs if they requie servces€
afer intial reception and placement.
                                                            , "





                    RECOMMENDATIONS€
TI ORR SHOUI DEVEP PERORMCE INICATORS BY REVIING
AN EXANING IT
TECHQUE
                          CU
                     MEUR AN . DATA COlLCTON
The ORR should col1ect appropriate data in order to establish comprehensive
performance indicators for all volags and affates partcipatig in the MGP. Whe
4-month self-sufciency could continue to be one performance measurement, ORR
should routinely collect longer- term refugee self-sufciency data. Many afates
aleady collect longer- term   data or would experience minimal difculty collectig   it.

Both long- term and 4-month self-sufciency measures should take into account (1) the
health of the local economy, (2) servces available in the community, (3) tyes of
refugees served , and (4) affate enrollment policies. Besides economic self-
sufciency, other performance indicators could include the quality and integration of
servces provided by volags, the extent to which the entire family receives servces , and
socia! adjustment measures such as refugees ' English improvement and partcipation in
accutuation activities.
The ORR should examine the performance indicators for other Federal and State job-
traing programs and consider coordinatig with these programs in developing these
standards. The HHS' Job Opportnities and Basic Skills Traing program and the
Deparent of Labor s adult trainirg program under the Job Traing Partership Act
have established performance indicators to measure their programs ' success.

TI ORR SHOUI CONSIDER OPTONS TO REUCE TI BUREN OF
TI MATCH       REQUJ
Most afates make extensive use of in-kind servces , but many do not count some or
al of it towards the match due to the burdensome nature of the paperwork. Ths has
a negative impact on the numbers and tyes of refugees that they serve and the
qualty of the servces that they provide. We recommend that ORR conduct a study


requiements.
to determine how the match requirement could be revised to reduce the paperwork
burden on grantees without compromising Federal grant administration audit



AGENCY     COMM
The ORR concurred with the recommendation on the match requiement. It did not
state if it concurred with the recommendation on developing performance indicators.
The ORR stated that "the data currently col1ected measures employment, the
cornerstone of the Refugee Act " and that, beyond 4 months it would be diffcult to
discern outcomes that would be attnbutable to the Matching Grant Program.
 Given the flexibilty that ORR allows for volags and afates to provide longer-term
servces to meet refugees needs to attain self-sufciency, the curent measures are not
adequate to determe the program s success or to provide inormation on ways the
program could be improved. The mandate for Federal agencies to develop
comprehensive and appropriate performance indicators is found thoughout effort to
reform and improve governent.       The Report of the Administration for Childen and
Families Monitorig Team     and the National Performance Review both contai strong
endorsements of appropriate and adequate effectiveness measures , includig long-term
performance indicators. The General Performance and Results Act of 1993 requies
that al Federal agencies develop comprehensive performance indicators and review
their performance based on these indicators starg no later than 1999.

A fu copy of ORR's        co=ents appear in the appendi.
                               APPENDIX€
                  ORR   COMM         ON   TI   DRA REORT


The ORR provided co=ents on     a draf of ths report. In response ,   we revised the
report to address most of its concerns. The draf report contaied thee
reco=endations. Based on ORR' s co=ents , we eliated the fist

reco=endation which suggested that ORR revise its program gudelies to clari the
goal of the MGP and address affates' concern that ORR overemphasizes early
employment. The   fu text of ORR' s co=ents begis on. the next page.
                                                                                    ~~~~




          DEPARTMENT OF HEALTH.. HUMAN SERVICES
                                                                                                     II"

    .a 2       /994	                                      ADMINISTRATION FOA cHlffliEN
                                                          Ofles 0' the Asalata"1            SecRNSult8-
                                                                                                           ANlIU
                                                          370 L' Enfant   Promenade, SfrG-EI
TO:                June Gibbs Brown                       Washington. C.      C. 2047 DIG-I
                   Inspector General
                                                                                                AIGCAA
FRON:	             Nary Jo Bane ,-                                                              AlGM
                   Assistant Secretary
                                                                                                oeclle
                       for Children and Families

                                                                                                EXC "'
SUBCT:             Reaponse to OIG Draft Report: "Tbe Rafugee
                   Grant pragraia: Balancinq Flexibility and
                                                                                            NatJT1
                   Accountability,            OEI-09-9Z-00060
This respond. to the draft report resulting from a recent review
of the rafuqee Voluntary Aqency Progam (Katch!nq Grant).
General Comments


Th- report reflect responses     ot local affiliates  at the national
agencies that receive fYndng for the Hatching Grant Progam
(KGP) to question" posed bY the OIG. Th.. r..port'
recoendations are      based largely on the8e responses.
Information which is impressionistic i. often presented as fact
e..9., 1:1i -changes in retugQII population " char on page 7 that
compares demogaphic characteristics of refugees who arrived in
the early 1980' S with .ore recent arrivals. The report would be
strenqtened if it                  included hard data. 

Tbe Matching Grant program is a discretionary proqram.
opeates within basic paraJeter8 and specified           services          reqired
and assistance to retugee5 that have ben developed based on
extensive consultations with the participating agencies in the

contex of the  Refuge. Act and available appropriations. wi thin
the Matching Grant guidelines, grant888 exercise considerable
discretion in developinq moals to serve refugees accordinq to
the needs of the refugees in the c01unities in which they
reside, and which conform to the capacities                        ot     the different
agencies nationally and locally. Grantlili8 apply for funding and
participate in that contex. They are not required to
participata or to enroll all of their clients i. e., they are free
to chao.. which refugees are best served by thia proqa1l.


aespD..            o Recoma8ndation8

OYS Recommendation


While the KGP' s guidelines stat. that three goals of the progam
are to help refuge.. (1) achieve econoaic self-sufficiency, (2)
obtain early employment, and (3) achieve social adjustment, many
affiliates believa that the.. goals conflict. For this reason
  a guidelines should be revised to more clearly define and

encourage program flexibility.
                                                                 a I :S \.:.: 7.. 


                                                                             -;"i
                                                                        OlJ3dS       I:l0   :i:f::
                                                                          031\13::30




                                                 A - 2

                                                                       ...




Paqe Two - June Gibbs Brown€

ACF RO&DOnSg€
These are indeed t.e goals                      ot      the program. The Refuq.. Act
requiras that all - resourc.. appropriated to the progaa be
expended N         ... in order to achieve
                                  economic selt-sufficiency among
rafugees aa quickly a8 possible... " and that "     employable
refugees should be placed on jOb8 a. 800n as possible after their
arrival in the United State8. N The Hatchinq Grant proqam'€
goal. are broad , but consistent with the Retuges - Act.€

As the report notes, wa have been flexible in how the goals are€
to be achieved in the program. Grantees are able to tailor€
.erlc.8 to a diverse refugee population.€

   G Recomendation
The ORR should develop performnca indicators by revising and€
exanding its             cuent
                      l1i!sUre and data collection                           techiques...€
                                                                                        tae€
Both long-ter and 4-month self-sut iciBncy measures should
into account (1) the health of the locl economy, (2) services€
available in the community, (3) typ. of refugees se ed, and (4)
affiliate enrollment policies. Besides economic selt-
sufficiency, other performnce indicatora could include the€
quality and inteqation ot services provided by volags, the€
extent to which the entire family receives serices, and social€
adjustment measure. such as refuqeea' English improvement and
paricipation in acculturation                           activities.
ACF ReSDonSB€

The data        cuently
                   beinq collected aeasure8 employaent, the€
cornerstone of the Refuqee Act. W. have revise measures to€
perit the aqencies to report as successful outcomes refugees€
employed or ..If-sufficient two months beyond the end                           ot   the€
proqaa. €Beyond that, it would be difficult to discern outco.es€
tht would be attributable to the Matching Grant program.€

OTG R eommend8tion€

The ORa should consider options to reduce the burden ot the match€
reqirement. . -. Wereco end that ORR conduct a study to€
determine how the match requirement could be revised to reduce€
the paperwork burden on grantees without compromisinq Federal€
grant administration audit requirements.€
ACF Comment€

w. agree and have been working with the agencies in this regard.€




                                                        A - 3€
Page Three - June Gibbs Brown

  .ahDioa1 COma.D
aTG S     emBnt    (p. 3)

Acording to the guidelines, sffiliates should place amp lay able
refugees in - appropriate" jobs as 800n aa po..1ble , and retugees
must accept entry-level jobs. The ORR believes       t an
appropriate job is one that match.. a refuqe.l s physical .kill.
an abiH ties.
ACP Comment

The guidelines actually state. "Federal policy requires that
rather than resorting to public cash assistance. refugees must
accept entry level employment. tI The intent ot the policy is to
indicate that work at any level i8 preterable to welfare.

ORR statee ite understandinq of appropriats employ.ent at 45 CFR
400. . "criteria  tor appropriate employability serica. and
employment. " These criteria .nco.pa.. broader parameters than
physical skills and limitations and apply to all recipients of
refugee cash assistance. not just the Hatching Grant Progam.
OIG S atement (c. 21

Authorization for the HGP ie found in subpart (c) of 8 O.
1522. .. The law states that the MGP es..ntially is designed to...

ACF Comment

The law does not specifically refer to the MGP in the referenced
subart. The law qivee general authority to the Director, ORR.
to .aka grants and contracts with public or private nonprofit
agencies.
    G statement tD. 31

Refuqe8s who tind employment are eligible  tor Medicaid or refug..
lIecical assistance for an additional 4 months even it their
income exceeds a prograa s eligibility guidelines.
ACP C mmf!nt

45 CFR 400. 104 state. N If a refugee vbo is receiving refugee
88leal assistance

               .R
                                  becomes ineligible 80lely by reason of
increased earnings                tro.     employment. the refug..' s medical
aeeistance eliqibility shall be extended by a period of four
months or until the refugee reaches the and                    ot his or her time
eligibility period for refuqee .adical assistance... whichever
comes    irs




                                        A - 4€
